  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Monitoring Part B Therapy for SNF Patients




                     JUNE GIBBS BROWN
                      Inspector General

                       NOVEMBER 2000
                        OEI-09-99-00550
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS

Steven P. Zerebecki, Lead Analyst                        Susan Burbach, Program Specialist

Robert Gibbons, Program Analyst

Deborah Harvey, Program Analyst 

Tom Purvis, Program Analyst





     To obtain copies of this report, please call the San Francisco Regional Office at (415)437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
June Gibbs Brown

Inspector General


Monitoring Part B Therapy for Skilled Nursing Facilities Patients (OEI-09-99-00550)


Michael M. Hash

Acting Administrator

Health Care Financing Administration


We are continuing to monitor the effects of the Balanced Budget Act of 1997 (BBA) and the

Balanced Budget Refinement Act of 1999 (BBRA) on therapy provided to Medicare beneficiaries

in skilled nursing facilities (SNFs). As you are aware, the BBRA suspended the Medicare

reimbursement caps on Part B physical, occupational, and speech therapy that were imposed by

the BBA. In addition, the BBRA mandates that the Department of Health and Human Services

conduct focused medical reviews on Part B therapy and provide reports to Congress in the years

2001 and 2002. We continue to gather and analyze information and data that will assist the

Health Care Financing Administration (HCFA) in responding to the congressional mandate. 


SUMMARY

The implementation of monetary caps on therapy in SNFs coincided with a dramatic decrease in
Part B therapy charges during 1999. However, preliminary reports indicate that we should expect
a rebound in SNF Part B therapy charges in 2000 and 2001, based in part on the moratorium on
the caps and persistent shortcomings in contractor oversight of billing practices and medical
necessity of Part B therapy. We recommended that HCFA immediately ensure that the fiscal
intermediaries conduct adequate medical reviews of Part B therapy in SNFs while improving
therapy providers’ understanding of billing procedures and the medical necessity guidelines.

BACKGROUND

Recent Office of Inspector General Work

In August 1999, the Office of Inspector General released two reports concerning physical and
occupational therapy rendered to Medicare patients in SNFs. We found that during the 12-month
period before the implementation of the SNF prospective payment system, Medicare paid nursing
homes approximately $811 million for medically unnecessary therapy, $145 million for therapy
provided by staff with inappropriate skills, and $331 million for undocumented therapy. These
payments represent 22 percent of the $5.8 billion Medicare paid for Part A and B therapy in the
12-month period. During the same 12 months, nursing home mark-ups of occupational therapy
exceeded $342 million. For Part B alone, $74 million was improperly billed for physical therapy
that was medically unnecessary or provided by inappropriately skilled staff.
Page 4 — Michael M. Hash

  In October 1999, we responded to a request from HCFA to analyze Medicare claims data and
  determine how the Part B caps would have affected beneficiaries in 1998, 1 year prior to
  implementation of the caps. We concluded that between 22.4 and 29.1 percent of the
  beneficiaries who received SNF Part B therapy in 1998 would have exceeded the caps (i.e., a
  $1500 limit for occupational therapy and a $1500 combined limit for physical and speech
  therapy). We found that patients in proprietary, free-standing, or chain-owned SNFs would be
  more likely to exceed the caps than patients in nonprofit, independently-owned, or hospital-based
  SNFs. In addition, we found that patients with hip fractures or strokes would be more likely to
  exceed the caps.

  Current Office of Inspector General Work

  Based on the findings of our 1999 studies and the BBRA provisions concerning Medicare
  therapy, we continue to monitor services for SNF beneficiaries. In consultation with HCFA, we
  are:

  !	     analyzing data collected during our on-site medical record reviews of a random sample of
         SNF beneficiaries who received therapy in 1999,

  !      comparing paid claims data for SNF therapy in 1998 and 1999,

  !	     assessing Medicare fiscal intermediaries’ (FI) involvement in medical reviews of SNF
         therapy,

  !	     surveying a random sample of SNF administrators to assess the effects of the 1999
         therapy caps on their patients and facilities, and

  !      comparing the payment policies of Medicare to non-Medicare payers.

  We recently completed the comparative analysis of 1998 and 1999 Medicare Part B therapy
  claims data and the assessment of FIs’ medical reviews of SNF therapy. The results of these
  studies are as follows:

  DRAMATIC DECREASE COUPLED WITH UNCERTAINTY ABOUT MEDICARE
  CLAIMS FOR THERAPY

  Claims data indicate a dramatic decrease in therapy charges for 1999. We compared the
  Medicare Part B therapy charges for SNF patients for Calendar Year 1998 to Calendar Year
  1999. By analyzing data from a 1 percent sample of the Medicare Common Working File, we
  found that Part B therapy charges declined significantly — approximately 75 percent — in 1999.
  As shown on the next page, not only did therapy charges decrease, but the total number of
  beneficiaries decreased. This suggests that some patients received less therapy than they might
  have without the cap, received therapy that was not billed for or was paid for by insurers other
  than Medicare, or received maintenance therapy from nonskilled nursing home staff that
  previously would have been billed as skilled therapy. The latter scenario is supported by our
Page 5 — Michael M. Hash

  recent interviews with nursing home administrators and by our current on-site reviews of therapy
  in SNFs. The dramatic decrease may also be explained, in part, by the requirement that, as of
  January 1999, reimbursement is based on Medicare Part B fee schedules. As more data become
  available from HCFA, we will conduct a more detailed analysis of the claims for Calendar Year
  1999.

                      Part B Physical, Occupational, and Speech Therapy
                         Total Charges from Skilled Nursing Facilities
                    Comparison of Calendar Year 1998 to Calendar Year 1999

                        Year      Total Charges        Total Beneficiaries     Total charges
                                                                               per beneficiary
                        1998     $1,840,666,245             619,600                $2,971
                        1999       $451,438,004             532,100                  $848
 Percent Change 1998-1999            -75.5%                 -14.1%                  -71.5%

  The permanency of the decrease is uncertain. While the caps and fee schedules appear to have
  contributed to the dramatic decline in charges, we believe that the suspension of the caps in 2000
  and 2001 will result in rising therapy charges and questionable billing practices, similar to those
  we observed in 1998. We have received preliminary reports that after January 1, 2000 some
  therapy providers returned to “business as usual,” indicating that the Medicare program may
  again incur high levels of medically unnecessary and improperly billed and documented therapy
  claims in 2000 and 2001. In addition, fiscal intermediaries report that while they do not have the
  resources and guidance from HCFA to conduct adequate medical reviews of Part B therapy, they
  commonly find medically unnecessary and excessive therapy in SNFs during their general reviews.


  FISCAL INTERMEDIARIES: MEDICAL REVIEW OF PART B THERAPY

  In preparation for our on-site medical reviews of Part B therapy conducted in SNFs, we assessed
  the extent to which Medicare FIs are conducting medical reviews of and providing training to
  providers of Part B therapy. In January and February of 2000, we used a standardized discussion
  guide to conduct telephone interviews with staff from all 33 Medicare FIs. In addition, we
  collected and reviewed provider education materials from selected FIs.

  Fiscal intermediaries rarely target Part B therapy for focused medical review. Only four FIs
  have conducted focused medical reviews on therapy in SNFs. The remainder reviewed therapy
  during general medical reviews of SNFs that were conducted as a result of claims data analysis.
  Under the SNF prospective payment system (PPS), FIs are required to perform medical reviews
  of a random sample which represents 1 to 3 percent of all SNF PPS claims. Focused medical
  review of SNF claims cannot exceed 20 percent of an FI’s total medical review budgeted
  workload. While FIs are not required by HCFA to focus on SNF Part B therapy claims for
  medical review, they can include the claims as part of their discretionary focused medical reviews.
Page 6 — Michael M. Hash

  Nineteen FIs indicated that they will continue reviewing therapy claims as part of their general
  oversight of SNFs. Nine FIs remarked that they will not conduct focused medical reviews of
  Part B therapy unless HCFA directs them to do so. They said that reviews are labor intensive,
  and HCFA has instructed them to examine only providers with evidence of “egregious” problems.
  Based on their reviews of SNF PPS claims, however, some FIs contend that focused medical
  reviews of Part B therapy are warranted.

  When they focus on therapy, fiscal intermediaries commonly find medically unnecessary
  and excessive services in nursing homes. Almost three-fourths of the FIs found medically
  unnecessary and/or excessive therapy claims during their general reviews. Their findings ranged
  from the inappropriate billing of “maintenance” therapy to the abusive overutilization of therapy
  on patients diagnosed with dementia or Alzheimer’s disease. In the latter example, the FIs found
  that the patients clearly could not benefit from the therapy provided to them. Dementia patients
  in particular either were not able to complete their courses of therapy or could not benefit from it.
  As a result, FIs denied these claims.

  During their general reviews, several FIs found instances of excessive therapy in nursing homes.
  In some cases, physicians had written orders for therapy without examining the patients. In other
  cases, nursing homes were billing for therapy following a “standing order” for all admissions. In
  these facilities, therapy is routinely conducted without a physician’s examination and/or order and
  regardless of the patients’ needs. For example, one FI reported receiving complaints from the son
  of a 100-year-old beneficiary for whom therapy was ordered upon her admission to the nursing
  home. The letter prompted the FI to conduct a medical review of the more than $3000 in therapy
  that the SNF had billed for her. The FI found that the medical record did not contain
  examinations by the physician who ordered the therapy. The beneficiary had the same functional
  level for several years prior to her admission (she had not walked in years), did not benefit from
  the occupational therapy she received, and had no speech or swallowing problems to justify the
  speech therapy ordered. Following the initial evaluations, the beneficiary told the SNF staff she
  did not want any further therapy. All claims for her subsequent occupational and speech therapy
  were denied.

  Most fiscal intermediaries had no role in ensuring that providers complied with the Part B
  therapy caps. Four FIs had systems in place to identify beneficiaries who had claims in excess of
  the $1500 therapy caps in 1999. No other FIs were monitoring the caps, and none had identified
  providers who had billed in excess of the caps. Some FIs mentioned that they were acting in
  compliance with HCFA’s program memorandum dated October 1998. The guidance indicated
  that SNFs were to monitor billing themselves and to ensure that they did not submit therapy
  claims that exceeded the per beneficiary caps.

  Three FIs identified providers who had billed in excess of the therapy caps in 1999. Based on
Page 7 — Michael M. Hash

   HCFA’s guidance,1 however, they are not planning to seek reimbursement for the overpayments.
   One FI had implemented edits in its payment system and had denied claims that were in excess of
   the caps. Another FI was in the process of identifying the beneficiaries who had received services
   in excess of the caps, but ceased its efforts when the moratorium on the caps was announced.
   This FI identified approximately 15,000 beneficiaries who had received therapy in excess of the
   caps. The third FI identified only one beneficiary who had received therapy in excess of the caps.

   While most FIs have informed providers that the caps on therapy have been suspended,
   few offer specific training on billing practices for Part B therapy. All but two FIs have
   informed their providers that the caps on Part B therapy have been suspended until 2002. Most
   issued provider bulletins in January or February 2000. Several FIs notified their providers via
   their monthly newsletters.

   Less than half of the FIs have offered or plan to offer training programs to SNFs on billing
   practices for Part B therapy. Of the 14 FIs who have offered training in the past, most held
   occasional workshops that focused on PPS for SNFs and included information about Part B
   therapy billing. Several FIs mentioned that they conduct training programs on an ad hoc basis:
   when providers request the training, when billing problems arise, or when a SNF becomes a
   Medicare provider.

   CONCLUSIONS

   Based on our interviews with the 33 Medicare fiscal intermediaries and previous Office of
   Inspector General work showing medically unnecessary and improperly documented therapy
   services, it is clear to us that problems still exist with Medicare Part B therapy provided in SNFs.
   We are concerned about the need for proper billing of Part B therapy provided in SNFs as well as
   improved quality of care and patient safety. Our interviews with the FIs and our current field
   work in SNFs have increased our concern about the need for medical reviews of Part B therapy.

   Therefore, we recommend that HCFA:

   1. 	       immediately ensure that fiscal intermediaries conduct adequate focused medical
              reviews of Part B therapy in SNFs and

   2. 	       continue to work to improve SNFs’ and therapy providers’ understanding of proper
              billing procedures and the medical necessity guidelines for Part B therapy in SNFs.

   While these recommendations are consistent with those from our 1999 reports on therapy, based
   on our ongoing work we wish to re-emphasize their urgency and elaborate on their
   implementation. The recommendations could be accomplished by promptly issuing the additional
   medical review guidelines for Part B physical, occupational, and speech therapy services that were

          1
          In its December 1999 Program Memorandum to Intermediaries/Carriers (Transmittal AB-99-101),
HCFA cautioned FIs to “be judicious in your use of resources” to ensure that providers complied with the 1999
caps on therapy.
Page 8 — Michael M. Hash

  mentioned in the December 1999 program memorandum to the FIs. In addition, HCFA could
  instruct all FIs to: a) provide SNFs and therapy providers with adequate training on Part B billing
  procedures and b) reemphasize to SNFs and therapy providers the importance of the medical
  necessity guidelines for physical, occupational, and speech therapy.

  We understand that HCFA has entered into a program safeguard contract for therapy. According
  to HCFA, one of the contractor’s responsibilities will be to develop protocols for future medical
  reviews of Part B therapy in SNFs. While we fully support a program safeguard initiative, the
  initiative does not address the immediate program vulnerabilities described in this report and our
  1999 reports. Focused medical reviews, conducted by the intermediaries, would help safeguard
  the program until the program safeguard contractor has developed, and HCFA has implemented,
  a refined protocol for future reviews. We therefore urge HCFA to utilize its current resources to
  conduct immediate medical reviews of Part B therapy.

  We hope that you find this information and our conclusions useful.
Page 9 — Michael M. Hash

  AGENCY COMMENTS
Page 10 — Michael M. Hash
Page 11 — Michael M. Hash
